U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Dayton Michael Cramer v. United States of America,
S.Ct. No. 19-1084

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 2,
2020, and placed on the docket on March 4, 2020. The government's response is due on April 3,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 4, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1084
CRAMER, DAYTON MICHAEL
USA

MICHAEL ROBERT UFFERMAN
MICHAEL UFFERMAN LAW FIRM, P.A.
2022-1 RAYMOND DIEHL ROAD
TALLAHASSEE, FL 32308
8 50-3 86-2345
UFFERMAN@UFFERMANLAW.COM

